No.

IN THE
SUPREME COURT OF THE UNITED STATES

C2 lr> r-\

m gy,

^!kCS>P\
PETITIONER

(Your Name)
VS.
S>Vcyjr-r-

RESPONDENT(S)
PROOF OF SERVICE

4 rv\

do swear or declare that on this date,
, 2t)f_2£>, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

■VS-'

I i/q
/

The names and addresses of those served are as follows:

5c
3> ^ o
J>

■ <~V~________

m

'XZn^\<A c<scjc?

rA

^ 1735_______
gj q tpl-i-l 7^7

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

UMi

20JLJ&

(Signature)

PROOF OF SERVICE
I declare (or certify, verify, or state) under penalty of perjury that the foregoing is
true and correct: The petitioner Pro Se, has served by email and US MAIL this
PETITION FOR REVIEW on:
The US Supreme Court 1 First St NE, Washington, DC 20543
The California Supreme Court 350 McAllister St Room 1295 San Francisco, Ca
94102-4797
The Los Angeles Court of Appeals 300 S Spring St 2nd Floor North Tower Los
Angeles CA 90013
The Superior Court of Pasadena Criminal Division Clerk of Courts at 300 E Walnut
St #103, Pasadena, CA 91101
The Superior Court of Pasadena Appellate Division Clerk of Court at 300 E Walnut
St #103, Pasadena, CA 91101
The Superior Court of Los Angeles Court of Appeals Misdemeanor Division do
Fredrick Bennett Room 546, Patti Jo McKay and Addie Lovelace 6th Floor at 111 N
Hill St, Los Angeles, CA 90012
The District Attorney of the Superior Court of Pasadena Criminal Division at 300 E
Walnut St #103, Pasadena, CA 91101
The District Attorney of the Superior Court of Los Angeles Court of Appeals
Misdemeanor Division at 320 W Temple St. 5th Floor, #540 Los Angeles, CA 90012

On this day the 4th of November 2020
Signed:

C.H. Singhderewa
Counsel Pro Se
808 W Altadena, Altadena California 91001

20

